                                                      NATIONAL SCIENCE FOUNDATION
                                                       OFFICE OF INSPECTOR GENERAL
                                                         OFFICE OF INVESTIGATIONS

                                                CLOSEOUT MEMORANDUM

 Case Number: I04020003
                                                                                      11          Page 1 of 1



                 We received an email providing the URL for an eBay auction for an NSF OIG Special Agent
         badge. The photograph on the auction site confirmed that the badge was identical to ours, except it
         did not bear a badge number. Every badge we have is numbered. 18 U.S.C. 8 701 provides:

                    Whoever. . . sells, or possesses any badge . . .of the design prescribed by the head of
                    any department or agency of the United States for use by any officer or employee '
                    thereof, . . . except as authorized under regulations made pursuant to law, shall be
                    fined under this title or imprisoned not more than six months, or both

                 The badge was offered for sale by eBay user     'm."   We contacted eBay, which informed
         us that         is                (the subject), and provided the subject's address and telephone
         number. When we called the subject, he expressed surprise that the badge was genuine. He said he
         had purchased the badge in a batch of badges, and he did not recall specifically when or how he
         obtained it. He immediately offered to return the badge to us, and he did so.

                From visual examination of the badge, it did not appear that it ever had a number. We
         contacted the manufacturer, which examined the badge and concluded that it was a blank, of the type
         that would have been provided to our office for approval before undertaking the manufacture of the
         numbered badges. We contacted the individuals from our office who were most likely to have been
         involved in the procurement of the badges in 1990, and none had any recollection of a badge blank or
         any idea what might have happened to it.

                 There appears to be no practical way to determine how the badge came into the subject's
         possession. Since the subject seemed genuinely surprised to learn that the badge was a Federal law
         enforcement badge, and immediately returned it to us, there is no basis for pursuing criminal action
         against him. Accordingly, this case is closed.




NSF OIG Form 2 (1 1/02)
